DOE F 1325.8
  (8-89)
EFG (07-90)


United States Government                                                                         Department of Energy


Memorandum
           DATE:     May 27, 1999
     REPLY TO:       IG-36 (A98PR015)                            REPORT NUMBER: ER-FS-99-04
      SUBJECT:       Results of Audit Procedures Performed at the Strategic Petroleum Reserve
                     During the Audit of the Department’s Consolidated Fiscal Year 1998
                     Financial Statements

               TO:   William C. Gibson, Jr., Project Manager, Strategic Petroleum Reserve Project Office


                     INTRODUCTION AND OBJECTIVE

                             The Government Management Reform Act of 1994 requires that audited
                     financial statements covering all accounts and associated activities of the Department be
                     submitted annually to the Office of Management and Budget. A Departmentwide audit
                     of the consolidated Fiscal Year 1998 financial statements was conducted by examining
                     internal controls, assessing compliance with laws and regulations, evaluating accounting
                     transaction cycles, and testing selected account balances at various Department facilities.

                             The objective of the Departmentwide audit was to determine whether the
                     Department’s consolidated financial statements presented fairly, in all material respects,
                     the financial position of the Department as of September 30, 1998 and 1997, and its
                     consolidated net cost, changes in net position, budgetary resources, financing activities,
                     and custodial activities for the fiscal years then ended in conformity with Federal
                     accounting standards. Departmentwide issues are addressed in Audit Report
                     No. IG-FS-99-01, issued February 25, 1999.

                            The purpose of this report is to inform management of the Strategic Petroleum
                     Reserve of matters that came to the attention of the Office of Inspector General during
                     the audit at the Strategic Petroleum Reserve and DynMcDermott Petroleum Operations
                     Company (DynMcDermott). The Project Office is responsible for the account balances
                     entered into the Department’s core accounting system.


                     SCOPE AND METHODOLOGY

                            The audit was conducted from July 1998 through January 1999 at the Strategic
                     Petroleum Reserve and DynMcDermott. Specifically, we examined internal controls,
                     assessed compliance with applicable laws and regulations, and selectively tested account
                     balances reported to Departmental Headquarters as necessary to achieve the
                     Departmentwide audit objective.
        Audit work at the Strategic Petroleum Reserve and DynMcDermott was
performed in accordance with generally accepted Government auditing standards for
financial audits. Since we relied on computer-generated data, we evaluated the general
control environment of certain financial systems and evaluated the reliability of the data
on a test basis.

        Because audit work was limited, it would not necessarily disclose all the internal
control weaknesses that may exist. Furthermore, because of inherent limitations in any
system of internal controls, errors or irregularities may nevertheless occur and not be
detected. This report covers our observations of activities through the end of fieldwork
on January 5, 1999. Projections of any evaluation of internal controls to future periods
is subject to the risk that procedures may become inadequate because of changes in
conditions or that the effectiveness of the design and operations of policies and
procedures may deteriorate.

       In addition to the audit work conducted by the Office of Inspector General, an
independent public accounting firm was engaged to perform agreed-upon audit
procedures of the Oil Inventory account. Also, another independent public accounting
firm performed overview procedures and reviewed Finance and Revenue.

        The Office of Inspector General considered the result of these reviews when
preparing the audit report on the Department’s consolidated Fiscal Year 1998 financial
statements (Audit Report No. IG-FS-99-01) and the management report referred to in
that report.

        An exit conference was held with the Project Office on December 3, 1998.


OBSERVATIONS

        No exceptions, material at the operations office or Departmental level, were
noted as a result of applying the specified audit procedures for the Strategic Petroleum
Reserve and DynMcDermott. However, we did note a matter regarding the accrual of
lease revenues that was brought to management’s attention.

         The Project Office leases several idle site facilities, such as holding tanks and
pipelines, to commercial organizations. The Statement of Federal Financial Accounting
Standards No. 7, Accounting for Revenue and Other Financial Sources, requires
revenue to be recognized as services are performed. However, the Project Office
recorded lease revenue as cash was received, not as services were performed. As a
result, lease revenues were overstated by $2,500 and $17,139 during the years ended
September 30, 1997 and 1998, respectively. The Project Office has agreed to update its
accounting closeout procedures to include proper timing, cutoff, and accrual of lease
revenues.
         In addition, we noted that a finding contained in the prior year's report, Matters
Identified at the Strategic Petroleum Reserve During the Audit of the Department's
Consolidated Fiscal Year 1997 Financial Statements has not been resolved. We
reported that DynMcDermott did not allocate an appropriate share of indirect costs to
Construction Work-in-Progress (CWIP) projects. According to the Department’s
Accounting Handbook, capitalized costs should include all costs to convert or to make
facilities or equipment ready for use. The cost of construction work performed by the
Department and its integrated contractors should include an appropriate share of indirect
or overhead costs. As a result, the CWIP, Completed Plant and Equipment, and
Accumulated Depreciation accounts were understated and the Cumulative Results of
Operations and the Net Cost of Operations were overstated. We were unable to
determine the extent of these misstatements. We recommended that DynMcDermott
establish procedures to allocate an appropriate share of indirect costs to CWIP.
Management had not concurred with our recommendation and stated that the amount of
indirect costs to be allocated to CWIP projects would not be material but would require
a major change in accounting systems and introduce substantial discontinuity to the
program's financial history. Management also stated that present and future capital
projects would be nominal as compared to the overall history of the program. The
Project Office has requested an interpretation and a possible waiver from the
Department's Chief Financial Officer.

       Since no new recommendations are being made, a formal response is not
required. We appreciate the cooperation of your staff throughout the audit.




                                                              (Signed)
                                                      Terry L. Brendlinger, Manager
                                                      Eastern Regional Audit Office
                                                      Office of Inspector General

cc: Director, Audit Liaison Division
                                                                  IG Report No. ER-FS-99-04




                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

        1.       What additional background information about the selection,
                 scheduling, scope, or procedures of the audit or inspection would
                 have been helpful to the reader in understanding this report?

        2.       What additional information related to findings and
                 recommendations could have been included in this report to assist
                 management in implementing corrective actions?

        3.       What format, stylistic, or organizational changes might have made this
                 report's overall message more clear to the reader?

        4.       What additional actions could the Office of Inspector General have taken on
                 the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

        Office of Inspector General (IG-1)
        U.S. Department of Energy
        Washington, D.C. 20585
        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as
customer friendly and cost effective as possible. Therefore, this report will be available
electronically through the Internet at the following addresses:

               Department of Energy Management and Administration Home Page

                                  http://www.hr.doe.gov/ig

                                             or

                                   http://www.ma.doe.gov

 Your comments would be appreciated and can be provided on the Customer Response
                          Form attached to the report.
